   United States Department of Agriculture
   Office of Inspector General




Analysis of Missouri's Supplemental Nutrition
Assistance Program (SNAP) Eligibility Data




                                             Audit Report 27002-0007-13
                                             March 2012
                         United States Department of Agriculture
                                Office of Inspector General
                                  Washington, D.C. 20250




DATE:          March 21, 2012

AUDIT
NUMBER:        27002-0007-13

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Angela Kline
               Acting Director
               Office of Internal Control
                Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General
                for Audit

SUBJECT:       Analysis of Missouri’s Supplemental Nutrition Assistance Program (SNAP)
               Eligibility Data


This report presents the results of the subject review. Your written response to the official
draft is included at the end of this report. Excerpts of your February 27, 2012, response and
the Office of Inspector General’s position are incorporated into the applicable sections of the
report.

Based on your response, we have reached management decision on all of the report’s
recommendations. Please follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer. Also, please note that
Departmental Regulation 1720-1 requires final action to be completed within 1 year of the
date of management decision to preclude being listed in the Department’s annual
Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during
our audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Recommendation Summary....................................................................................2
Background and Objectives ....................................................................................3
Background...............................................................................................................3
Objectives ..................................................................................................................4
Section 1: SNAP Eligibility Oversight Needs Strengthening..............................5
   Finding 1: FNS Should Strengthen its Oversight of DSS’ Eligibility Review
   for SNAP................................................................................................................5
         Recommendation 1 ........................................................................................8
         Recommendation 2 ........................................................................................8
Scope and Methodology.........................................................................................10
Abbreviations .........................................................................................................12
Exhibit A: Summary of Monetary Results ..........................................................13
Agency’s Response .................................................................................................15
Analysis of Missouri’s Supplemental Nutrition Assistance
Program (SNAP) Eligibility Data - 27002-0007-13

Executive Summary

The Food and Nutrition Service’s (FNS) Supplemental Nutrition Assistance Program (SNAP),
formerly known as the Food Stamp Program, provides monthly food assistance and nutrition for
the health and wellbeing of more than 40 million low-income individuals.1 The Office of
Inspector General (OIG) initiated this audit in January 2011 to analyze the Missouri SNAP
participant database to identify anomalies that may result in ineligible participants receiving
SNAP benefits.

Of the 901,349 average monthly recipients in Missouri as of September 2010, we found
766 recipients (.08 percent) who were deceased, were using a deceased individual’s Social
Security number (SSN), had invalid SSNs, were receiving duplicate benefits in Missouri, were
receiving benefits simultaneously from one of six other selected States, or were listed in the
Electronic Disqualified Recipient System (eDRS) as being disqualified from receiving SNAP
benefits.2, 3 We also found 664 households that exceeded SNAP gross and net income
limitations. Of the 664 households that exceeded both income and net income thresholds,
Missouri’s Department of Social Services (DSS) initially reviewed 299 cases and determined
that 113 households exceeded Federal SNAP limits.4 DSS is verifying the eligibility of the
remaining 365 households.

While DSS has taken several steps to safeguard against potential fraud, waste, and abuse, there is
still some opportunity for improvement. DSS, which administers SNAP, does not perform all
checks necessary to ensure SNAP benefits go only to those who are eligible. Specifically, it does
not perform some edit checks that would help ensure that the participant information that is
entered is accurate. Also, though DSS uses the Public Assistance Reporting Information System
(PARIS) database to check for duplicate enrollment across States, this system does not include
all participants nationwide because FNS does not require States to participate in PARIS or to
check for interstate participation.5 Furthermore, although DSS enters disqualified recipient



1
  For fiscal year (FY) 2010 according to FNS’ SNAP: Average Monthly Participation, dated September 1, 2011.
2
  Selected States include Alabama, Florida, Kansas, Louisiana, Mississippi, and Texas.
3
  FNS maintains eDRS, which is a national internet-based application that tracks SNAP participants who have been
found guilty of intentional program violations and have been disqualified from the program.
4
  According to 7 Code of Federal Regulations (CFR) 273.2 (j), dated January 1, 2011, the “categorically eligible”
program allows States to align the SNAP income and asset limits with other means-tested programs. A household is
categorically eligible for SNAP if all members receive Supplemental Security Income (SSI), general assistance
(GA), or Temporary Assistance for Needy Families (TANF) assistance or non-cash benefits or services.
Categorically eligible households must meet the income and asset limits from the TANF, GA, or SSI program to be
eligible for SNAP.
5
  PARIS is a computer matching process by which the Social Security numbers of public assistance recipients are
matched against various Federal databases and those of participating States to prevent simultaneous participation in
benefit programs among States. PARIS is operated under the auspices of the Administration for Children and
Families, U.S. Department of Health and Human Services. Official PARIS website: http://www.acf.hhs.gov/paris.

                                                                         AUDIT REPORT 27002-0007-13               1
information into eDRS, FNS does not require States to check an applicant’s status unless they
have reason to believe the applicant is subject to disqualification in another State.

In all, the 766 participants and 664 households whose eligibility should have been researched
cause us to question approximately $229,083 in benefits per month, based on the average
monthly amount a recipient and household receives in Missouri.6 With a 34 percent increase in
participation since 2007, SNAP is a rapidly growing program in Missouri. If DSS does not take
measures to increase preventative and fraud detection efforts, it risks making continued
payments to individuals who may not be eligible for SNAP benefits.

Recommendation Summary
FNS should require DSS to regularly perform checks to determine whether information in
participant databases is accurate and complete. FNS also needs to require DSS to review the 766
individuals and the unverified 365 of the 664 households identified in this report to determine if
participants have received improper payments, and recover any improper payments as
appropriate.

Agency Response
FNS is actively engaged in a dialogue with regional offices and with States regarding policies
and technical assistance tools which can strengthen integrity to an even greater extent. FNS is
processing final rules that will codify the requirement that States perform the SSA death match,
the prisoner match, and eDRS matching prior to certification. FNS expects to publish the final
rules in June 2012. FNS also issued a November 15, 2011 policy memo reminding States of this
requirement. The State has committed to follow up on the 766 individuals and 365 households,
including the DSS verified 113 households identified in this report, and estimates completion by
October 31, 2012.

OIG Position

OIG concurs with FNS’ response. We have reached management decision on the report’s two
recommendations.




6
  Potential improper payments are based upon the average amount a recipient ($125.86) and household ($277.56)
receives in Missouri each month for FY 2010 according to FNS’ SNAP Average Monthly Benefit per Person, dated
September 1, 2011, and FNS’ SNAP Average Monthly Benefit per Household, dated January 5, 2012. We were not
able to determine the actual amount because payments are calculated by household, not individual; therefore, even if
one participant is ineligible—such as a deceased participant—it is possible that other members of the household are
eligible to receive benefits at a lower amount.

2     AUDIT REPORT 27002-0007-13
Background and Objectives

Background

FNS’ SNAP, formerly known as the Food Stamp Program, provides monthly food assistance and
nutrition for the health and wellbeing of more than 40 million low-income individuals.7 Missouri
had 901,349 individuals—or 15 percent of the State’s population—enrolled in SNAP as of
September 2010.8, 9 Since 2007, the program has grown by 34 percent in Missouri. While FNS
pays the full cost of recipient benefits, both FNS and the States share the program’s administrative
costs.

For enrollment and eligibility procedures, SNAP regulations at the Federal level specify minimum
guidelines, such as maximum income requirements, to be enforced by the State agencies; however,
these regulations do not establish a standardized system of internal control at the State level. FNS’
policy is to allow State agencies the flexibility to establish control systems that meet the individual
needs of each State. For example, Federal regulations allow State agencies to determine whether or
not they will interview recipients face-to-face or on the telephone prior to granting benefits. In
Missouri, DSS performs both face-to-face and telephone interviews. Each State decides how it
would like to organize the administration of SNAP, and owns and maintains its own eligibility
system—including software and databases—which varies from State to State.

In Missouri, applicants submit documents to prove citizenship, residency, income, and expenses.
To continue in the program, participants are required to verify their need for SNAP benefits
during an interim review every 6 to 12 months, depending on the applicant’s status.10
Participants in SNAP apply and are approved or denied by DSS based on pre-established eligibility
requirements.

State agencies also have the primary responsibility for monitoring recipients’ compliance with
program requirements and for detecting and investigating cases of alleged intentional program
violation.11 Once applicants have submitted information, either for certification or recertification,
DSS performs several automated data checks to validate selected information. State agencies are
required to establish a system to ensure that certain prisoners do not receive benefits.12 State


7
  Programs provide nutrition assistance in a variety of forms, ranging from commodities to prepared meals to
vouchers or other targeted benefits used in commercial food retail locations.
8
  Missouri’s monthly SNAP participation numbers are based on an average for FY 2010 according to FNS’ SNAP:
Average Monthly Participation, dated September 1, 2011.
9
  Population information is based on the 2010 United States Census, dated June 3, 2011.
10
   According to DSS Food Stamp Manual, 1140.040.00, Mid-Certification Reviews, dated April 22, 2010,
participants who are aged or disabled and receive SSI only need to verify their information every 12 months. All
other participants must verify every 6 months.
11
   7 CFR 273.16 (c), dated January 1, 2011, defines an intentional program violation as any act violating the Food
Stamp Act, the Food Stamp Program regulations, or any State statute for the purpose of using, presenting,
transferring, acquiring, receiving, possessing, or trafficking SNAP benefits. The definition includes any act that
constitutes making a false or misleading statement or concealing or withholding facts.
12
   Public Law (PL) 105-33, Balanced Budget Act of 1997, Section 1003 (a) (1), dated August 5, 1997; and
PL 114-246, The Food and Nutrition Act of 2008, Section 11(r), dated October 1, 2008.

                                                                         AUDIT REPORT 27002-0007-13                  3
agencies must also check recipient data against a national Social Security Administration (SSA)
database, which can be accessed using SSA’s State Verification Exchange System (SVES) to ensure
that deceased recipients do not receive benefits.13, 14 In addition, DSS utilizes additional national
and State database systems to verify income and employment information provided by applicants.

Objectives

OIG initiated this audit to analyze the Missouri SNAP participant database to identify anomalies
that may indicate ineligible participants receiving SNAP benefits.




13
   Provided at no cost to State agencies, SVES matches data against several national databases to check for death
and SSN verification for every submitted individual. SSA’s Death Master File also checks SSNs nationwide to
search for deceased individuals.
14
   PL 105-379, An Act to Amend the Food Stamp Act of 1997, Section 1(a), dated November 12, 1998.

4     AUDIT REPORT 27002-0007-13
Section 1: SNAP Eligibility Oversight Needs Strengthening

Finding 1: FNS Should Strengthen its Oversight of DSS’ Eligibility Review
for SNAP
We found that of the 901,349 average monthly recipients in Missouri as of September 2010,
766 recipients (.08 percent) were deceased, were using a deceased individual’s SSN, had invalid
SSNs, were receiving duplicate benefits in Missouri, were receiving benefits simultaneously
from one of six States, or were listed in the eDRS as being disqualified from receiving SNAP
benefits.

We also found 644 households that exceeded SNAP’s gross and net income limitations. Of the
664 households that exceeded both income and net income thresholds, DSS was able to initially
review 299 cases and determined that 113 households exceeded Federal SNAP limits. DSS is
verifying the eligibility of the remaining 365 households.

While DSS has taken several steps to safeguard against potential fraud, waste, and abuse, there is
still some opportunity for improvement. Specifically, DSS does not perform some edit checks
that would ensure the participant information is entered accurately. Additionally, though DSS
uses the PARIS database to check for duplicate enrollment across States, this system does not
include all participants nationwide because FNS does not require States to participate in PARIS
or to check for interstate participation. FNS also does not require States to check an applicant’s
status unless they have reason to believe the applicant is subject to disqualification in another
State. Not performing these checks increases the risk of improper payments. In all, the 766
participants and 664 households that should have been researched continued to receive
approximately $229,083 in benefits each month.

To verify that benefits are not issued to individuals who are deceased, DSS, like all agencies who
administer SNAP, is required to compare the information in the SNAP participant database with
national SSA death information. When we used SSA’s Death Master File (DMF) to perform this
check ourselves, we found that 283 current Missouri SNAP participants’ SSNs were listed in
SSA’s DMF.15 DSS receives death information from SSA through SVES on a daily basis and
matches Missouri Department of Health death certificate information on a monthly basis.
Presently, deceased household members are only discovered and removed during the next
certification cycle or possibly at the next review period due to FNS’ policy on simplified
reporting, which only requires reporting changes such as income, and does not require reporting
of deaths until the recertification period when the participant reapplies for SNAP.16 Of the 283
individuals identified in our match, 90 of these individuals were enrolled in a one-person



15
   The SSA’s DMF is used by leading government, financial, investigative, credit reporting, and medical research
organizations as well as other industries to verify individuals who have died.
16
   7 CFR 273.12(a)(5), dated January 1, 2011, requires States to act on all changes reported by a household that
would increase its benefits, and to act on changes that would decrease a household’s benefits in certain
circumstances.

                                                                         AUDIT REPORT 27002-0007-13                5
household and benefits on the account were used after their date of death.17 In one case, benefits
on the account were accessed over four years after the participant’s date of death. DSS is in the
process of researching and resolving these cases.

We also found individuals using invalid SSNs. DSS’ procedure is to verify an applicant’s SSN
when initially applying for SNAP.18 DSS stated that if participants cannot provide a valid SSN
at the time of enrollment, a blank SSN field is left in the system. To continue to receive benefits,
members who refuse or are unable to provide SSNs must provide justification each month until
the SSN is provided or an application for a SSN is completed.19, 20 DSS personnel are also
prompted by an automated reminder to investigate a participant’s justification each month until
the SSN is provided.21 If participants still cannot produce a valid SSN or provide good cause for
why they have not obtained a valid SSN, they should be removed from the program.22 We found
that 21 participants had SSNs that did not match the format of the SSA scheme for valid SSNs,
and 23,025 were enrolled in the program with blank SSN fields. Of the 23,025 participants,
14,456 were enrolled in the program without a SSN for over 6 months since their last
certification date. DSS officials stated that while some blank SSNs are assigned to individuals
who are in the process of obtaining SSNs, they also explained that some individuals had
incorrect or invalid SSNs in the system because the system does not check for input errors
caused when personnel enter the number into the system, or for SSNs following invalid schemes,
such as those starting with a “9.” We encourage DSS to perform regular edit checks for these
types of input errors.

We also found two individuals receiving SNAP benefits simultaneously under two separate
accounts. DSS currently has an edit check to prevent entering the same SSN in the system.
However, even using this check, DSS was unable to locate these duplicate individuals until we
performed a query looking for duplicate SSNs within different households receiving SNAP
benefits. When we notified the agency of the two duplicate individuals, the agency investigated
them and determined that each had received dual benefits. DSS has since taken measures to
recover overpaid benefits. Missouri officials stated this was caused by a system malfunction that
allowed for the duplicates. Because this type of error is rare and does not pose a great risk, we
are not making a recommendation at this time.

DSS also had multiple instances of duplicate interstate enrollment with the States of Alabama,
Florida, Kansas, Louisiana, Mississippi, and Texas. Each participant should only receive SNAP
benefits from the State where the participant resides. To safeguard against interstate enrollment
and potential fraud, Missouri’s SNAP application form asks applicants if they or any member of
their household, are receiving benefits from another household or State. Additionally, the


17
   This test could only be performed on one-person households. When there are multiple people in a household, the
system cannot distinguish which member of the household is using the benefits.
18
   DSS Food Stamp Manual, 1102.015.20, Social Security Numbers, dated November 21, 2005.
19
   DSS Food Stamp Manual, 1105.040.10.05, Determining Good Cause, dated March 19, 2004.
20
   7 CFR 273.6(d), dated January 1, 2011, determines that good cause for failure to apply for an SSN must be shown
monthly in order for such a household member to continue to participate in SNAP.
21
   DSS Food Stamp Manual, 1105.040.10.10, Action Taken - Good Cause Determination, dated March 19, 2004.
22
   DSS Food Stamp Manual, 1105.40.10, Budgeting for Failure to Comply with SSN/Decline to Declare, dated
March 19, 2004.

6     AUDIT REPORT 27002-0007-13
application asks if the applicant or any household member has been convicted of falsely claiming
residence in two or more places at the same time to receive SNAP benefits. We matched SNAP
enrollment data between Missouri and these selected States and found that despite these
precautions, 386 individuals enrolled in the Missouri SNAP program were simultaneously
enrolled in one of the selected States for 3 consecutive months.23 The duration of time could
potentially be longer, but because some of our data sources do not list a start date for receiving
benefits, we were unable to determine how long participants overlapped in some States.24 Of the
386 individuals, we provided DSS with a sample of 60 individuals to investigate.25 In some
cases, participation in multiple States occurred because FNS does not have a nationwide database
of all SNAP participants for DSS to check. While DSS does utilize PARIS—an optional, multi-
State database that stores social welfare program participant information—not all States input
their SNAP participant information in PARIS. With mandatory SNAP participation in PARIS or
a similar system, DSS—as well as other State agencies—would have access to a reliable,
nationwide database, which they could then utilize in their fraud detection efforts to minimize
interstate duplicate enrollment. In other cases, DSS stated that participation in multiple States
occurred because DSS county-level case workers only check the PARIS reports quarterly and
based on simplified reporting rules, households are not required to report a move until re-
certification or interim review periods.

Additionally, we found 74 active participants who were previously disqualified from receiving
SNAP benefits. FNS maintains eDRS, which is a national system that tracks SNAP participants
who have been found guilty of intentional program violations and have been disqualified from
the program. States are required by FNS to input data on individuals who have been
disqualified, but they are not required to check this system before allowing a person into the
program. DSS officials stated these individuals were not detected because their data matching
verification process was delayed and, in some cases, DSS officials determined that the
disqualification information could not be verified because States do not always maintain
documentation of the information contained in eDRS. We recommend that FNS require States to
properly retain documentation of their determinations contained in eDRS, and verify that
individuals have not been disqualified from SNAP prior to allowing them into the program.

We also found 664 households who exceeded both the gross income and net income limitations
of the SNAP program. Because of the large volume of cases, DSS reviewed 299 of the cases and
found 113 households exceeded SNAP’s maximum gross and net income levels. The remaining
365 cases will need to be further reviewed to determine if any improper payments and data entry
errors were made.




23
   Two individuals were enrolled in both Kansas and Texas while also enrolled in Missouri.
24
   The States of Alabama, Florida, Kansas, Missouri, and Texas were not able to provide a “start date” from their
databases.
25
   We provided DSS with a judgmental sample of 10 SSNs from each of the 6 States that we matched SNAP
enrollment in.

                                                                          AUDIT REPORT 27002-0007-13                7
We also noted that 12,130 individuals receiving benefits from Missouri reported themselves to
be non-US citizens. While non-US citizens can be eligible for SNAP, it is another area that
States need to monitor.26

In all, the 766 participants and 664 households whose eligibility should have been researched
cause us to question approximately $229,083 in benefits per month, based on the average benefit
amount a recipient and household receives in Missouri. We have forwarded these participants to
DSS for further research and investigation. We recognize that DSS is in the process of
researching and resolving several of these issues and believe that by utilizing input edit checks
and enhancing its process to check eDRS for disqualifications, DSS can improve its fraud
detection and prevention. In addition, if FNS mandates that all States participate in PARIS or a
similar database, States would have a powerful resource to use in checking for—and ultimately
reducing—interstate duplicate enrollment nationwide.

Recommendation 1
Require DSS to regularly perform checks to determine whether information in participant
databases is accurate and complete.

Agency Response
To ensure participant information is accurate and complete, FNS is actively engaged in a
dialogue with regional offices and with States regarding policies and technical assistance tools
which can strengthen integrity to an even greater extent. FNS is processing final rules that will
codify the requirement that States perform the SSA death match, the prisoner match, and eDRS
matching prior to certification. This final rule is expected to be published by June 2012. Also,
FNS issued a November 15, 2011, policy memo reminding States of the death and prisoner
matching requirement.

OIG Position
OIG concurs with FNS’ response that a policy be issued to codify the States’ requirement to
perform these matches. We have reached management decision on this recommendation.

Recommendation 2
Require DSS to review the 766 individuals and 365 households identified in this report and
determine if participants have received improper payments. Recover improper payments as
appropriate, including the 113 households identified in this report that DSS verified.



26
  The Food and Nutrition Act of 2008, as amended, limits eligibility for SNAP benefits to U.S citizens and certain
lawfully present non-citizens. Generally, a non-citizen must be a qualified alien (as defined in the Personal
Responsibility and Work Opportunity Reconciliation Act, dated January 3, 1996) in order to be eligible for SNAP.
Non-citizens like tourists and students are generally not eligible. Individuals who are eligible based on their
immigration status must also satisfy other SNAP eligibility requirements such as income and resource limits.

8     AUDIT REPORT 27002-0007-13
Agency Response
FNS agrees with this recommendation and estimates completion by October 31, 2012.

OIG Position
OIG concurs with FNS’ response for this recommendation and has reached management
decision.




                                                         AUDIT REPORT 27002-0007-13   9
Scope and Methodology
We analyzed the participants in the Missouri SNAP program for the timeframe of March 2010
through March 2011. Missouri was selected due to its close proximity to our regional office and
because it is one of the largest States in terms of SNAP participation during fiscal year 2010.27
We selected the timeframe because at the time of our audit, it was the latest information
available.

We obtained the SSA’s DMF and extracts of key SNAP participant data from Missouri State
officials.28 We also obtained SNAP participant data from the six other selected States of
Alabama, Florida, Kansas, Louisiana, Mississippi, and Texas. We further obtained the March
2011 eDRS extract of disqualified SNAP individuals from FNS and compared it to the March
2011 participant data. We analyzed these data using Audit Command Language. Our tests were
developed to identify anomalies that may result in ineligible participants receiving SNAP
benefits and to determine whether FNS provided adequate program guidance and oversight. Our
tests determined whether:

     ·   Active SNAP participants were receiving benefits,
     ·   Active SNAP participants were using deceased individuals’ SSNs,
     ·   Invalid SSNs were used,
     ·   Duplicate payments were received,
     ·   Recipients were receiving benefits simultaneously from selected States, and
     ·   Active participants were disqualified from receiving SNAP benefits.

For the interstate duplicate participation analysis, a judgmentally selected sample of 60
individuals was sent to Missouri for review. As applicable, all the anomalies identified were sent
to Missouri State officials for verification.

We reviewed public laws and FNS regulations, policies, procedures, and other controls
governing the administration of SNAP to ensure DSS complied with Federal guidelines. We
examined Missouri’s SNAP policies, procedures, and internal controls to ensure DSS complied
with FNS guidelines. We evaluated reports that resulted from reviews relative to SNAP, the
Federal Manager’s Financial Integrity Act Report for fiscal year 2011, and Government
Accountability Office reports. We interviewed Missouri State officials and obtained supporting
documentation.

We conducted our audit work with DSS in Jefferson City, Missouri, and FNS’ national office in
Alexandria, Virginia. We also coordinated our audit with FNS’ mountain plains regional office
in Denver, Colorado. Our audit period was June 2010 through February 2012.



27
   Monthly participation figures are based on an average for FY 2010 according to FNS’ SNAP: Average Monthly
Participation, dated September 1, 2011.
28
   To allow for lag time between an individual’s date of death and the date benefits are terminated or adjusted,
participants whose deaths occurred after January 30, 2011 were not included in the results.

10       AUDIT REPORT 27002-0007-13
We conducted this review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                          AUDIT REPORT 27002-0007-13       11
Abbreviations
CFR ............................. Code of Federal Regulations
DMF............................ Death Master File
DSS ............................. Department of Social Services
eDRS ........................... Electronic Disqualified Recipient System
FNS ............................. Food and Nutrition Service
FY ............................... Fiscal Year
GA............................... General Assistance
OIG ............................. Office of Inspector General
PARIS ......................... Public Assistance Reporting Information System
PL................................ Public Law
SNAP .......................... Supplemental Nutrition Assistance Program
SSA ............................. Social Security Administration
SSI............................... Supplemental Security Income
SSN ............................. Social Security Number
SVES........................... State Verification Exchange System
TANF .......................... Temporary Assistance for Needy Families
USDA.......................... Department of Agriculture




12     AUDIT REPORT 27002-0007-13
Exhibit A: Summary of Monetary Results

FINDING        RECOMMENDATION
                                                DESCRIPTION              AMOUNT             CATEGORY
NUMBER             NUMBER

                                                 283 Clients              $35,618
                                                                                          Questioned Cost,
     1                       2                 identified on the         average per
                                                                                       Recovery Recommended
                                               Death Master File           month
                                                   386 Clients
                                                 participating in         $48,582
                                                                                          Questioned Cost,
     1                       2                 SNAP in both MO           average per
                                                                                       Recovery Recommended
                                                and AL, FL, KS,            month
                                                LA, MS, or TX*
                                               2 Clients receiving          $252
                                                                                          Questioned Cost,
     1                       2                 duplicate benefits        average per
                                                                                       Recovery Recommended
                                                     in MO                 month
                                                                           $2,643
                                                                                          Questioned Cost,
     1                       2                  21 Invalid SSNs          average per
                                                                                       Recovery Recommended
                                                                           month
                                                    74 Clients             $9,314
                                                                                          Questioned Cost,
     1                       2                   listed in eDRS          average per
                                                                                       Recovery Recommended
                                                      system               month
                                                    113 of 299
                                                   Households
                                                   miscoded as            $31,364
                                                                                          Questioned Cost,
     1                       2                    “categorically         average per
                                                                                       Recovery Recommended
                                                 eligible” and/or          month
                                               over gross and net
                                               income thresholds
                                                365 Households
                                                                          $101,310
                                               over gross and net                         Questioned Cost,
     1                       2                                           average per
                                               income thresholds                       Recovery Recommended
                                                                           month
                                                 needing review
TOTAL                                                                   $229,083 average per month


The table above represents the $229,083 in average questioned costs per month, recovery
recommended.

* Two individuals were in both Kansas and Texas while also enrolled in Missouri.




                                                                     AUDIT REPORT 27002-0007-13      13
14   AUDIT REPORT 27002-0007-13
Agency’s Response




                 USDA’S
      FOOD AND NUTRITION SERVICE’S
        RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 27002-0007-13   15
United States
Department of    DATE:          February 27, 2012
Agriculture
                 AUDIT
                 NUMBER:        27002-0007-13
Food and
Nutrition
Service
                 TO:            Gil H. Harden
3101 Park                       Assistant Inspector General for Audit
Center Drive
Room 712
                 FROM:          Audrey Rowe /S/
                                Administrator
Alexandria, VA
22302-1500
                                Food and Nutrition Service

                 SUBJECT:      Analysis of Missouri’s Supplemental Nutrition Assistance Program
                               (SNAP) Eligibility Data

                 This letter responds to the official draft report for audit report number 27002-0007-13,
                 Analysis of Missouri’s Supplemental Nutrition Assistance Program (SNAP) Eligibility
                 Data. Specifically, the Food and Nutrition Service (FNS) is responding to the two
                 recommendations in the report.

                 OIG Recommendation 1:

                 Ensure that DSS regularly performs checks to determine whether information in participant
                 databases is accurate and complete.

                 Food and Nutrition Service Response:

                 FNS takes program integrity very seriously. Any errors are of concern; however, FNS
                 notes that the findings in this report constitute about 0.08 percent of the Missouri
                 caseload suggesting that while current processes can always be improved, they are, in
                 fact, working. Pursuant to the critical importance of integrity to ensure that people in
                 need receive nutrition assistance to which they are entitled, FNS is actively engaged in
                 a dialogue with our regional offices and with States regarding policies and technical
                 assistance tools which can strengthen integrity to an even greater extent.

                 FNS already has a number of activities in place that will address the situations found in
                 this report. FNS is currently in the process of awarding a grant through the Office of
                 Management and Budget (OMB) Partnership Fund for Program Integrity. This grant
                 will fund development of a pilot clearinghouse database with information from five
                 States in the Southeast and Southwest for detecting duplicate participation in SNAP
                 and disaster SNAP (D-SNAP) across State boundaries. FNS supports the audit States
                 Alabama, Mississippi, Florida and Louisiana’s participation in the coalition of States
                 that will use grant funds from the OMB Partnership Project to develop the interstate
                 clearinghouse.
                                                                                 P age |2




Per SNAP regulations at 7 CFR 272.4(e)(1), each State agency shall establish a system
to assure that no individual participates more than once in a month, in more than one
jurisdiction, or in more than one household within the State. FNS further encourages
States to have processes in place to check data with neighboring States to prevent
duplicate participation across State lines. The Public Assistance Reporting Information
System (PARIS) is available to States as an additional tool to identify interstate
duplicate participation but it is not mandatory for States to use PARIS. Some States
have expressed concerns that the information in PARIS is not timely.

FNS requires States to input individuals who have been disqualified from SNAP into
the Electronic Disqualified Recipient System (eDRS). States are currently required to
check eDRS if they suspect the client is in a disqualified status and to determine the
penalty length for a person who was found guilty of an intentional Program violation.
However, FNS has final rules in process which will require all applicants to be checked
against the eDRS system prior to certification. This final rule is currently in clearance
and is expected to be published by June 2012.

Estimated Completion Date: February 29, 2012

OIG Recommendation 2:

Require DSS to review the 766 individuals and 365 households identified in this report
and determine if participants have received improper payments. Recover improper
payments as appropriate including the DSS verified 113 households identified in this
report.

Food and Nutrition Service Response:

FNS agrees with this recommendation. FNS would like to reiterate that a household is
categorically eligible for SNAP if it receives Supplemental Security Income (SSI),
general assistance (GA), Temporary Assistance for Needy Families (TANF) assistance
or non-cash benefits or services. Categorically eligible households must meet the
income and asset limits from the TANF, GA, or SSI program to be eligible for SNAP.
While categorical eligibility makes a household eligible for SNAP, the household must
still meet all other SNAP eligibility requirements and have a net income that qualifies it
for a benefit. We would like to convey that the Missouri Department of Social Services
(DSS) had the counties re-review the data of the 113 cases identified in this report as
miscoded as “categorically eligible” and/or over gross and net income thresholds. The
results were 34 cases received benefits appropriately and should be removed from the
total number of 113.

Additionally, DSS has reviewed 215 of the 365 cases requiring verification of
eligibility due to over gross and net income thresholds and determined that 144 cases
were correct. DSS feels that these cases should also be removed from the calculation
of error dollars.




                            AN EQUAL OPPORTUNITY EMPLOYER
                                                                               P age |3




DSS reviewed all 283 death match cases and determined that 3 of the 283 cases
warranted referral to the Welfare Investigation Unit for further review. The remaining
280 cases had either an incorrect SSN or were not deceased. DSS believes these 280
cases should be removed from the calculation of error dollars.
DSS reviewed all 74 cases of participants listed in eDRS as being actively disqualified.
DSS identified 17 participants that were receiving benefits improperly and will
establish claims for those households. DSS is still waiting for verification from other
States on 4 participants identified, and the remaining 53 participants were not verified
by the originating States, thus being deleted, or were a duplicate entry. DSS believes
these 53 cases should be removed from the calculation of error dollars.
Finally, FNS asserts that the report reference to non-citizens remains confusing and
misleading. The report acknowledges that certain non-citizens may be eligible for
SNAP. Moreover, SNAP applicants who are non-citizens must verify their legal status.
This status is confirmed in Quality Control reviews. Program regulations do not
require separate reporting on non-citizen participants. The fact that there was no way to
identify the number of non US citizens receiving benefits in Missouri’s SNAP database
is neither an area of concern nor anomaly.


Estimated Completion Date: October 31, 2012




                           AN EQUAL OPPORTUNITY EMPLOYER
Informational copies of this report have been distributed to:

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer (1)
 Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
